<html>
<title> - PENDING LEGISLATION</title>
<body><pre>[Senate Hearing 115-505]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 115-505

                          PENDING LEGISLATION

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON 
                            WATER AND POWER

                                 OF THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                                   ON


		S. 1142/H.R. 2457      S. 2166
		S. 1556                H.R. 2786
		S. 2074
 
                               __________

                           FEBRUARY 28, 2018
                               __________

                  
                  
                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                  
                  
                  
                       Printed for the use of the
               Committee on Energy and Natural Resources

        Available via the World Wide Web: http://www.govinfo.gov
        
        
                              ___________        
                    
                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
29-766 PDF                 WASHINGTON : 2019 




               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
LAMAR ALEXANDER, Tennessee           MAZIE K. HIRONO, Hawaii
JOHN HOEVEN, North Dakota            ANGUS S. KING, JR., Maine
BILL CASSIDY, Louisiana              TAMMY DUCKWORTH, Illinois
ROB PORTMAN, Ohio                    CATHERINE CORTEZ MASTO, Nevada
SHELLEY MOORE CAPITO, West Virginia  TINA SMITH, Minnesota
                                 ------                                

                    Subcommittee on Water and Power

                          JEFF FLAKE, Chairman

JOHN BARRASSO                        CATHERINE CORTEZ MASTO
JAMES E. RISCH                       RON WYDEN
MIKE LEE                             BERNARD SANDERS
BILL CASSIDY                         JOE MANCHIN III
ROB PORTMAN                          TAMMY DUCKWORTH
SHELLEY MOORE CAPITO                 TINA SMITH

                      Brian Hughes, Staff Director
                Patrick J. McCormick III, Chief Counsel
                Lane Dickson, Professional Staff Member
             Mary Louise Wagner, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
          Camille Touton, Democratic Professional Staff Member
                            
                            
                            
                            
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Flake, Hon. Jeff, Subcommittee Chairman and a U.S. Senator from 
  Arizona........................................................     1
Cortez Masto, Hon. Catherine, Subcommittee Ranking Member and a 
  U.S. Senator from Nevada.......................................     5
Wyden, Hon. Ron, a U.S. Senator from Oregon......................     5

                                WITNESS

Mikkelsen, Alan, Senior Advisor to the Secretary for Water and 
  Western Resource Issues, U.S. Department of the Interior.......     6

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Begaye, Russell:
    Letter for the Record........................................    31
Blaine, Tom:
    Letter for the Record........................................    32
Brown, Marshall P.:
    Letter for the Record........................................    34
Chavez, Aaron:
    Letter for the Record........................................    35
Clayton, Seth J.:
    Letter for the Record........................................    36
Colorado Springs Utilities:
    Letter for the Record dated February 21, 2018................    37
    Letter for the Record regarding S. 2166 dated February 23, 
      2018.......................................................    39
Colorado Water Congress:
    Letter for the Record regarding S. 2166......................    40
    Letter for the Record--Codify Water Supply Infrastructure and 
      Drought Resilience Act.....................................    41
Colorado Water Conservation Board:
    Letter for the Record........................................    43
Cortez Masto, Hon. Catherine:
    Opening Statement............................................     5
Denver (CO) Board of Water Commissioners:
    Letter for the Record........................................    44
Fallgren, Tom:
    Letter for the Record........................................    45
Federal Energy Regulatory Commission:
    Letter for the Record........................................     2
Flake, Hon. Jeff:
    Opening Statement............................................     1
Harris, Mark:
    Letter for the Record........................................    46
Jamestown (ND) Reservoir Cabin Owners Association:
    Letter for the Record........................................    21
Mead, Hon. Matthew H.:
    Letter for the Record........................................    48
Mikkelsen, Alan:
    Opening Statement............................................     6
    Written Testimony............................................     8
    Response to Question for the Record..........................    27
Mueller, Andrew A.:
    Letter for the Record........................................    50
Municipal Subdistrict, Northern Colorado Water Conservancy 
  District:
    Letter for the Record........................................    51
Schmidt, Max:
    Letter for the Record........................................    52
Southern Ute Indian Tribe:
    Letter for the Record........................................    53
(The) Southwestern Water Conservation District:
    Letter for the Record........................................    55
Stutsman County (ND) Park Board:
    Letter for the Record........................................    22
Tri-County Water Conservancy District:
    Letter for the Record........................................    57
Upper Colorado River Commission:
    Letter for the Record........................................    58
Upper Gunnison River Water Conservancy District Board of 
  Directors:
    Letter for the Record........................................    60
Wyden, Hon. Ron:
    Opening Statement............................................     5

----------
The text for each of the bills which were addressed in this hearing can 
be found on the committee's website at: https://www.energy.senate.gov/
public/index.cfm/2018/2/subcommittee-on-water-and-power022818

 
                          PENDING LEGISLATION

                              ----------                              


                      WEDNESDAY, FEBRUARY 28, 2018

                               U.S. Senate,
                   Subcommittee on Water and Power,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:00 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Jeff Flake, 
presiding.

             OPENING STATEMENT OF HON. JEFF FLAKE, 
                   U.S. SENATOR FROM ARIZONA

    Senator Flake [presiding]. This hearing of the Senate 
Energy and Natural Resources Subcommittee on Water and Power 
will come to order.
    The purpose of today's hearing is to receive testimony on a 
number of important water and power related bills pending 
before the Subcommittee.
    Let me begin by welcoming Senator Cortez Masto as the new 
Ranking Member of the Subcommittee. It is sure nice to have 
someone who is also from the Lower Basin. Thank you for being 
here.
    Today, we will hear testimony from the Department of the 
Interior on five water and power related bills. These bills 
affect a range of issues including the expiring hydropower 
licenses, rural power projects, sale of excess Reclamation 
lands and endangered fish recovery programs.
    In addition to testimony from Mr. Mikkelsen, we have 
received a written statement from FERC on S. 1142 and H.R. 2786 
which, without objection, will be placed as part of the record.
    [Written statement from FERC on S. 1142 and H.R. 2786 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Senator Flake. I look forward to hearing testimony on these 
bills and will turn to Senator Cortez Masto.

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Good morning and thank you, Chairman 
Flake, for calling this hearing. I am pleased to be joining the 
Water and Power Subcommittee as the Ranking Member.
    Nevada, like Arizona, as you well know, is home to one of 
the first Reclamation projects in the West. The Reclamation Act 
of 1902 established what we now know as the Bureau of 
Reclamation and subsequently authorized the Truckee-Carson 
project. One hundred sixteen years later, Nevada is home to the 
largest reservoir in the nation, Lake Mead, and one of the 
largest hydroelectric power facilities in the United States, 
Hoover Dam.
    Today's hearing covers a variety of issues facing the 
Bureau of Reclamation and FERC. For Reclamation, S. 1556, 
sponsored by Senator Tester, looks to find a path forward for 
funding completing much needed water supply projects for tribal 
and rural communities. Senator Gardner's legislation, S. 2166, 
extends a program that helps to recover four endangered fish 
species while providing regulatory certainty for water projects 
in the Upper Colorado and San Juan River Basins. S. 2074 
creates a process in which cabin owners can purchase the land 
around Yorktown Reservoir in North Dakota. We have two other 
bills that extend Commerce construction deadlines, S. 1142 for 
hydro projects in Louisiana, similar to several other bills 
pending in Congress and reduce transaction costs for hydro 
projects located in conduits with little environmental impact, 
H.R. 2786.
    Mr. Mikkelsen, I look forward to hearing your testimony 
today. I also look forward to working with you and Senator 
Flake on the water and power issues that are of great 
importance to our home states and this nation.
    Thank you.
    Senator Flake. Thank you, Senator Cortez Masto.
    Our sole witness today is Mr. Alan Mikkelsen, Senior 
Advisor to the Secretary for the Interior for Water and Western 
Resource Issues. Thank you for the testimony you will give to 
us, and please plan to limit your testimony to five minutes. We 
have a function that starts on the Senate Floor involving all 
the Senators at about 10:25, so I think we could probably wrap 
this up by that time.
    Thank you for your attendance here today and with that, we 
will recognize you for your testimony.
    Mr. Mikkelsen. Thank you, Senator and Ranking Member Cortez 
Masto, I----
    Senator Flake. Hold for a second.
    I see we have been joined by Senator Wyden. Do you have an 
opening statement or want to say anything?

                 STATEMENT OF HON. RON WYDEN, 
                    U.S. SENATOR FROM OREGON

    Senator Wyden. Mr. Chairman, thank you so much. I want to 
thank you and our Ranking Minority Member, if I could just be 
very brief.
    Mr. Mikkelsen, we want to thank you for being here. As you 
know, we are pushing very hard to get a workable solution in 
the Klamath Basin. For folks at home and in rural Oregon, this 
has been the longest running battle since the Trojan War, and 
we have got to get it resolved.
    Senator Merkley and I have worked very closely together 
with the Governors of Oregon and California, the tribes, 
irrigators throughout the Basin, Secretaries of Interior and 
your agency to find a comprehensive agreement.
    So we have gotten close in the past. I thought we were 
there when I put together a working group that involved folks 
from your agency, but we have to come up with a truly lasting 
agreement to resolve those concerns. If we don't, the farmers 
get hurt, ranchers get hurt, the tribes get hurt and, of 
course, we set back the effort to protect wildlife in the Basin 
as well.
    This is going to be a very difficult water year. I think 
all my colleagues in the West know that we are looking at maybe 
one of the most challenging years since the early 2000s. With 
low snowpack and a warm winter, irrigators, literally and 
figuratively, feel the heat.
    We have appreciated the fact that you, in particular, have 
had a great presence in the region. We want to thank you for 
being on the ground.
    I gather my colleagues are going to ask the questions and 
when they are done, I have a question for you.
    But I want to thank the Chairman and the Ranking Minority 
Member for scheduling a very important hearing for folks in 
Oregon, who know Mr. Mikkelsen as an individual who really 
wants to step up and have us finally find a path to a real 
solution in the Klamath Basin that would be important to 
Oregonians, but I think would be a model for the country, in 
terms of bringing Westerners together.
    My colleagues, we are all Westerners, and we see this day 
in and day out and the watch word is ``collaboration.'' That is 
what our constituents say when we go home in Arizona and Nevada 
and Oregon, but often it is easier said than done.
    I thank the Chairman for the chance to make those remarks, 
and I will wait for questions.
    Senator Flake. Thank you, Senator Wyden.
    Please proceed.

 STATEMENT OF ALAN MIKKELSEN, SENIOR ADVISOR TO THE SECRETARY 
 FOR WATER AND WESTERN RESOURCE ISSUES, U.S. DEPARTMENT OF THE 
                            INTERIOR

    Mr. Mikkelsen. Thank you, Chairman Flake.
    I am Alan Mikkelsen, Senior Advisor to the Secretary of the 
Interior for Water and Western Resource Issues and formerly, 
Deputy Commissioner at the Bureau of Reclamation. And I am 
pleased, today, to testify on behalf of the Department of the 
Interior on three of the bills pending before the Subcommittee 
today.
    First, S. 1556, authorizes the use of designated funds to 
pay for the construction of authorized rural water projects and 
for the resolution of claims against the United States related 
to the use of Indian Tribal land by the United States for the 
generation of hydropower and to underwrite the implementation 
of Indian Water Rights Settlements. The bill creates a 
Reclamation Rural Water Construction and Settlement 
Implementation Fund which includes two separate accounts, both 
funded with the deposits that would otherwise go into the 
Reclamation Fund. The total funding would be $115 million 
annually for 20 years. The Department supports the goals of 
encouraging vibrant, rural economies and ensuring safe, 
reliable sources for drinking water for rural and tribal 
residents. Rural water projects help to build strong, secure 
rural communities and are important to our non-federal 
sponsors. The Administration also continues to strongly support 
Indian Water Rights Settlements in order to increase 
opportunities for Indian tribes to develop, manage and protect 
their water and related resources.
    Next, Senate bill 2074 establishes a procedure for the 
conveyance of Reclamation-owned property around the Jamestown 
Reservoir to the Stutsman County Park Board. Reclamation has 
technical modifications to provide additional clarity and 
protections. This includes recommendations that will ensure 
that the parcels in question are managed consistently with the 
Secretary's commitment to protect public lands and increase 
public access. We look forward to working with the sponsor and 
the Committee to ensure proposals of this nature preserve 
access and recreation for future generations to come.
    Finally, the Endangered Fish Recovery Program Extension 
Act, S. 2166, like its House counterpart, would extend both the 
Upper Colorado River and the San Juan River Basin Recovery 
Programs. These programs share the dual goals of recovering 
populations of endangered fish while development continues to 
meet current and future human needs for water. The programs 
provide ESA compliance for more than 2,400 federal, tribal and 
non-federal water projects, consuming 3.7 million acre-feet of 
water to support municipal, industrial and agricultural water 
use and related economic development. The Department supports 
both efforts and does not object to S. 2166's enactment.
    Mr. Chairman, these distinct pieces of legislation, 
significant as they are, are fragments of a larger tapestry of 
legislative reforms necessary to allow the Bureau of 
Reclamation to meet its principle goal of delivering reliable 
water supplies of water and developing a dependable supply of 
hydropower. Among the many other reforms that are needed, 
include substantive streamlining of the NEPA process and 
implementing regulatory reforms. The Department and the Bureau 
look forward to engaging with this Committee on these important 
issues.
    Mr. Chairman, that concludes my remarks. I'm happy to 
answer any questions on any of the matters pending before the 
Subcommittee today.
    [The prepared statements of Mr. Mikkelsen follow:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Flake. Thank you, we appreciate the testimony.
    You mentioned in your testimony that the Jamestown Dam and 
Reservoir were authorized for irrigation, flood control and 
recreation. Would transferring the cabin lots and other federal 
land surrounding the reservoir interfere with any of the 
authorized project purposes, additional benefits like wildlife 
habitat or current management of the project?
    Mr. Mikkelsen. Mr. Chairman, the proposed legislation would 
not interfere with any of the current authorized uses, nor the 
recreational uses that you're referring to.
    Senator Flake. Okay, thank you.
    In Arizona, we have seen firsthand the value of resolving 
Indian water settlements or disputes through settlements and 
how this certainty often leads to innovative water management 
and infrastructure investment. Do you think that the lack of a 
more certain mechanism to fund Indian water settlements factors 
into the willingness of the tribes to enter settlement 
negotiations and the overall success of negotiating these 
settlement agreements?
    Mr. Mikkelsen. Mr. Chairman, this is a conundrum, frankly, 
for all of us that are involved in these issues from both the 
legislative and the administrative positions. We've got a 
number of Indian water right settlements across the West that 
have been implemented that we are trying to fund. And I guess, 
I would just simply point out an example that I'm very familiar 
with in Montana, the Blackfeet settlement that was just 
recently enacted.
    Senator Flake. Yes.
    Mr. Mikkelsen. That settlement provides for a total of 
about $600 million that's necessary for implementation. That's 
supposed to be in place by 2026. Four hundred million of that 
comes from Bureau of Reclamation and at this point we are 
appropriating $10 million a year. And so, if you do the math on 
that, in 2025 there's going to be a substantial balloon payment 
that we're going to have to figure out what we're going to do 
with, how we're going to deal with that.
    Senator Flake. Alright. Thank you.
    It is my understanding that the Upper Colorado River Fish 
Recovery Program has allowed for continued water and power 
operations without a single ESA lawsuit being filed in the 
decade since its development. Can you speak to the success of 
avoiding litigation and what it means in terms of management on 
the Upper Colorado for water and power supply and species 
recovery and the cost savings from avoiding litigation and 
litigation risk?
    Mr. Mikkelsen. Excuse me. Thank you.
    Mr. Chairman, the program has made successful, or I should 
say, substantial progress and has been successful in restoring 
and stabilizing the populations of the endangered fish. And we 
believe the program is much preferable and has been much more 
successful than what litigation would entail.
    As I travel the West doing conflict resolution within 
litigation, we have winners and losers and, at the end of the 
day, it's not necessarily the best thing for the resource, even 
if people win.
    And so, I would point to this particular issue as being a 
real success story. We've been able to recover, or we're 
substantially on the way to recovering, the Colorado Pike 
Minnow, the Humpback Chub and the Razorback Sucker. And we've 
got the Bony Tail showing great strides in the most recent 
surveys that we've conducted. And so, you know, from that 
perspective we believe that the program has been very 
successful and would like to see it continued.
    Senator Flake. Alright. Thank you.
    Senator Cortez Masto.
    Senator Cortez Masto. Thank you.
    Let me just follow up on that.
    Can you talk a little bit, Mr. Mikkelsen, about why these 
programs are important for Reclamation projects?
    Mr. Mikkelsen. This program and other programs like this 
are important because they are, in essence, negotiated 
settlements and in these types of settlements we have the 
opportunity and the ability to protect existing uses to the 
maximum extent possible. And that provides for much more surety 
and certainty for all water users as we're going forward with 
that and with these types of activities.
    Senator Cortez Masto. Thank you.
    And then Mr. Mikkelsen, let me jump back also to the 
conversation on the Blackfeet settlement in Montana. I 
appreciate your comments. I do have concerns about a balloon 
payment in 2025. How do we solve this problem? Are you working 
now on a strategy with us or recommendations on how we address 
this issue for this funding problem because let me just say, as 
you mentioned in your statement, Congress has authorized 30 
negotiated Indian water right settlements, including the 
Shoshone-Paiute Duck Valley settlement and the Pyramid Lake 
settlement in my home State of Nevada. So I am curious if you 
have any ideas on how we solve the problem, the funding 
problem.
    Mr. Mikkelsen. To define the scope of what we're talking 
about, as you know, we've got about 30 settlements underway, in 
negotiation right now. There's been, I think, 32 that have been 
approved by Congress. There are approximately 225 left to go. 
And so, just the sheer scope of what we're talking about----
    Senator Cortez Masto. Right.
    Mr. Mikkelsen. ----means that we should probably be having 
a serious discussion with policymakers, with the legislature, 
in trying to resolve and come up with realistic solutions for 
this.
    I don't have any specific proposals to make today, other 
than to encourage all of us to sit at the table and do the best 
we can to address the situation in a proactive manner.
    Senator Cortez Masto. Thank you.
    Let me jump back now to some budget cuts that I am 
concerned about.
    There is a recent Reclamation report that found that based 
on 2016 funding levels, the six remaining Congressionally-
authorized rural water projects would not be completed until 
well after 2065. It also estimates that by 2065 there will 
still be a $1.8 billion balance to complete these projects 
despite a $4 billion federal investment, and the President's 
Fiscal Year 2019 budget also requests $35 million, down from 
$84 million in 2017. This is a 65 percent cut to the rural 
water programs.
    I understand we are in a tough fiscal environment and it is 
important that we carefully consider what projects are funded, 
but how do you reconcile the issue of funding levels being so 
inadequate that these projects will not be completed until 50 
years from now, yet, also proposed cutting funding for rural 
water projects in your budget?
    Mr. Mikkelsen. You know, I think this is a source of 
frustration for all of us that work in this arena, but we also 
have to face the fiscal realities that are before Congress and 
the Administration at this time. And you know, we will do 
everything that we can to support these settlements, these 
rural water programs, as we go forward, but we need to figure 
out some long-term solutions.
    Senator Cortez Masto. Yes.
    And isn't it true that the longer we delay these projects, 
the more expensive they are and they become?
    Mr. Mikkelsen. Certainly.
    Senator Cortez Masto. Yes.
    Mr. Mikkelsen. I cannot deny that at all.
    Senator Cortez Masto. Alright.
    Thank you, Mr. Mikkelsen, I appreciate you being here 
today.
    Senator Flake. Thank you.
    Senator Hoeven.
    Senator Hoeven. Thank you, Mr. Chairman, for holding this 
hearing today and also for consideration of my bill, S. 2074.
    I know we are tight on time, so I will be brief both in my 
statement and in my question.
    S. 2074 is a result of hard work and constructive meetings 
among state, local and federal entities. The legislation grew 
out of meetings between myself and my staff that we have held 
with homeowners and local officials over the past several years 
and is modeled after legislation that I introduced last year 
concerning Lake Patterson in Dickinson, North Dakota. This bill 
is a result of the stakeholders looking at all aspects of this 
land conveyance and coming to a workable solution for all of 
the stakeholders involved.
    Construction of North Dakota's Jamestown Dam and Reservoir 
was authorized under the Flood Control Act of 1944 as part of 
the Garrison diversion unit, Missouri division Pick-Sloan, 
Missouri Basin program. The purposes of the project include 
irrigation and flood control, and provide a municipal water 
supply as well as recreation benefits.
    The Stutsman County Park Board currently has a management 
agreement with the Bureau of Reclamation for operation and 
maintenance of the majority of lands around the reservoir. This 
includes the area for 71 permitted, exclusive use, cabins. 
Thirty of those cabins are full-time, 41 are occupied part-
time.
    Additional lands are dedicated to recreation and wildlife 
management, and there is a parcel of land that is leased to the 
North Dakota Game and Fish Department.
    For almost 70 years cabin owners have worked and invested 
in enhancing the land and improving the quality of life, not 
just for themselves and their families but for the public there 
as well. Over the decades, Stutsman County Park Board has also 
tried to increase and enhance recreational opportunities and 
support public accessibility.
    Mr. Chairman, I would ask permission and unanimous consent 
to submit for the record letters of support for S. 2074. The 
letters are from the Stutsman County Park Board and the 
President of the Jamestown Reservoir Cabin Owners Association.
    Senator Flake. Without objection.
    [Letters of support for S. 2074 follow:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Hoeven. I look forward to working with this 
Subcommittee, the full Energy and Natural Resources Committee 
and the Department of Interior on this legislation.
    Again, I thank you, Mr. Chairman.
    Mr. Secretary, first I want to thank you for being here 
today. I want to thank you for your testimony. I appreciate the 
feedback that you have given.
    My question is simply, will the Department commit to 
working with me on this issue and help provide technical 
assistance on the legislation?
    Mr. Mikkelsen. The short answer to that, Senator Hoeven, is 
absolutely, we will commit to that.
    I don't see any reason why we can't reach a resolution that 
will be acceptable to everybody here. The Secretary's only 
concern is making sure that his concerns regarding the transfer 
of public land and particularly recreational land are addressed 
and I don't see any reason that we can't, with the support that 
we have from the local Park Board from the local county and 
from your office.
    Senator Hoeven. And State Game and Fish.
    We have everybody on board so we will work with you a 
little bit on the language, but we want your commitment that 
you will help us get it done.
    Mr. Mikkelsen. And we will definitely work with you on 
that.
    Senator Hoeven. Okay. Thank you, I appreciate it very much.
    Thank you, Mr. Chairman.
    Senator Flake. Thank you. Thank you.
    Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman.
    Mr. Mikkelsen, you have heard everyone here, Democrats and 
Republicans, really zero in on one word which is 
``collaboration'' which is the key to resolving so many of 
these natural resource questions.
    I want to zero in on the Klamath Basin because that is, 
obviously, important to my constituents. I also think if we can 
get it resolved it is going to be a national model for dealing 
with contentious water issues.
    As you know, when I was Chairman of this Committee we had a 
working group and I thought we were on the cusp of being able 
to finally resolve this. We had basically almost all the 
stakeholders together, the Administration, the Governors, I 
thought we were there. As you know, it, kind of, fell apart at 
the last minute.
    You have built some goodwill out there. I think I told you 
that when you came to visit. And I think folks in Klamath Falls 
are paying attention to this hearing because they know you are 
here, and they know there is going to be a discussion of this.
    I think it would be very helpful if you could outline what 
you are going to do going forward to build greater support in 
the Basin based on your trips and the studying you have done 
for collaborations, so that you can be the one to actually 
thread the needle. I mean, that is what this is really all 
about is how do we unlock this kind of challenge so that we can 
thread the needle, bring the stakeholders together and produce 
the kind of collaboration all the Senators have been talking 
about?
    I would like to see us buying that place. It has been a 
long time. You have heard me characterize it. It is the longest 
running battle since the Trojan War.
    So, if you would, just describe, I mean, outline, how you 
think you can move forward and get more folks in the Basin 
together on a collaboration that will resolve this.
    Mr. Mikkelsen. Thank you, Senator Wyden.
    Let me preface my remarks by saying that I have been 
engaged in collaborative, consensus-based, conflict resolution 
processes for almost three decades. And I just completed one in 
New Mexico that I liken to perhaps climbing Mt. Rainier or, if 
I wanted to exaggerate, like perhaps climbing Denali.
    I would liken what we're going to be doing in the Klamath 
Basin to climbing Everest and probably without oxygen. So, it 
is definitely a challenge.
    I do believe that there is room in the Basin for all the 
parties to come together in an effort to secure, bargain for 
benefits that they will not, that none of the parties would be 
able to get unilaterally through litigation or any other 
method. And so, we're doing everything we can to encourage 
people to start looking in that direction.
    In the meantime, as you noted earlier in your statement, 
this is an extremely difficult year. And so, we're doing 
everything that we can to also help the parties get through 
this year.
    We are engaged----
    Senator Wyden. What do you have in mind, excuse me for 
interrupting. What do you have in mind to help the parties get 
through this year because I think that is welcome that you 
sense it, as I heard this weekend in rural Oregon at town 
meetings? What do you have in mind to help them to get through 
this year?
    Mr. Mikkelsen. From the agricultural side, we are doing 
everything that we can to secure enough water to make the 
injunctive flows that we have to in the Basin and we're 
discussing with the parties the possibility of, perhaps, 
adjusting the dilution flow in particular because we do believe 
that we will be able to make the flushing flow that's required 
by the court.
    But at the same time, we are reaching out to all of the 
federal agencies and the Fish and Wildlife Service has been a 
great partner here in trying to secure enough water to make 
those flows and still be able to make agricultural deliveries.
    We believe that we are close to that, and we had a call 
with parties on Monday night. We're going to have another call 
with parties late this afternoon on that.
    With respect to the fisheries, the fishery in the lake, we 
have a trust responsibility and an ESA responsibility to make 
sure that the two species of endangered suckers do not go 
extinct and we are doing everything we can, again, working with 
Fish and Wildlife Service, to make sure that that doesn't 
happen.
    Fish and Wildlife Service have a hatchery program going at 
this time. We're, in 2018, we will be releasing the first two-
year-old fish from that program, and we're hoping that we will 
be able to judge how successful that is with this first release 
and we intend to accelerate those efforts with Fish and 
Wildlife Service.
    And so, we're also then engaged with all of the parties, 
just simply asking them to start thinking about what their 
desires for long-term solutions are and it's not going to be an 
easy--I have no illusions about how this is going to go. We are 
going to have starts and stops. I would submit and I have told 
all of the parties that we do not have to start from square 
zero here because of the work that you've referred to that's 
been done in the Basin earlier.
    We've got a tremendous amount, a tremendous body of work, I 
think, that we can build on as we go forward here.
    So, I think and hope that we would be able to accelerate 
these efforts in the next year or so.
    Senator Wyden. Thank you.
    Mr. Chairman, I am well over my time.
    Just one last thought, Mr. Mikkelsen.
    What we said for purposes of the working group that we had 
when I was Chairman of this Committee, I hope you'll look at as 
something of your watch word, which is on these tough 
collaborations nobody gets everything they want. Nobody gets 
everything they believe they ought to have. The question is 
whether everybody can get something significant that they feel 
strongly about so they can be part of the collaboration. If you 
will keep that in mind, I would appreciate it.
    Thank you, Mr. Chairman.
    Mr. Mikkelsen. Thank you.
    Senator Flake. Thank you.
    Senator Smith.
    Senator Smith. Thank you very much, Chair Flake and Ranking 
Member Cortez Masto. I know that we are on a short timetable.
    I would like to just quickly say that I requested this 
hearing on Senator Tester's bill, the Authorized Rural Water 
Projects Completion Act because in my state the Lewis and Clark 
Regional Water System is still awaiting federal funding to 
complete a project that was authorized nearly 18 years ago. 
This project is critically necessary for water. It is a 
critically necessary water project serving Minnesota, South 
Dakota and Iowa. Senator Tester's bill, of which I am a co-
sponsor along with Senator Klobuchar and others, would ensure 
that this previously authorized water project gets the funding 
that it needs to be completed.
    So thank you so much for this hearing.
    Thank you, Senator Cortez Masto, for drawing attention to 
the cost of delay for these projects.
    I look forward to working with the Committee to getting 
this done.
    Senator Flake. Thank you, Senator Smith.
    With that, I mentioned that we have an event over on the 
Floor to go over to the Rotunda.
    Thank you for your testimony. Thank you and the hearing 
record will remain open for two weeks. We urge you to get any 
responses back quickly for inclusion in the official hearing 
record.
    With the thanks of the Committee, this Committee stands 
adjourned.
    Thank you.
    [Whereupon, at 10:30 a.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

				[all]

</pre></body></html>
